<html>
<title> - THE FUTURE OF SURFACE TRANSPORTATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                  THE FUTURE OF SURFACE TRANSPORTATION

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

                           Serial No. 113-80

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-409                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas












                            C O N T E N T S

                             June 18, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    11

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................
    Written Statement............................................    13

                               Witnesses:

The Honorable Gregory D. Winfree, Assistant Secretary, United 
  States Department of Transportation
    Oral Statement...............................................    15
    Written Statement............................................    18

Mr. Scott Belcher, President and CEO, Intelligent Transportation 
  Society of America
    Oral Statement...............................................    30
    Written Statement............................................    32

Mr. John Maddox, Director of Collaborative Program Strategy, 
  Texas A&M Transportation Institute and University of Michigan 
  Transportation Institute
    Oral Statement...............................................    39
    Written Statement............................................    42

Ms. Kristen Tabar, Vice President, Technical Administration 
  Planning Office, Toyota Technical Center
    Oral Statement...............................................    56
    Written Statement............................................    58

Dr. Christopher P.L. Barkan, Professor and George Krambles 
  Faculty Fellow, Executive Director, Rail Transportation and 
  Engineering Center, University of Illinois at Urbana-Champaign
    Oral Statement...............................................    69
    Written Statement............................................    71

Mr. Troy Woodruff, Chief of Staff, Indiana Department of 
  Transportation
    Oral Statement...............................................    82
    Written Statement............................................    85

Discussion.......................................................   100

             Appendix I: Answers to Post-Hearing Questions

The Honorable Gregory D. Winfree, Assistant Secretary, United 
  States Department of Transportation............................   118

Mr. Scott Belcher, President and CEO, Intelligent Transportation 
  Society of America.............................................   131

Mr. John Maddox, Director of Collaborative Program Strategy, 
  Texas A&M Transportation Institute and University of Michigan 
  Transportation Institute.......................................   155

Ms. Kristen Tabar, Vice President, Technical Administration 
  Planning Office, Toyota Technical Center.......................   161

Dr. Christopher P.L. Barkan, Professor and George Krambles 
  Faculty Fellow, Executive Director, Rail Transportation and 
  Engineering Center, University of Illinois at Urbana-Champaign.   185

 
                  THE FUTURE OF SURFACE TRANSPORTATION

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. The Subcommittee on Research and 
Technology will come to order.
    Good morning, everyone. Welcome to today's hearing titled, 
``The Future of Surface Transportation.'' In front of you are 
packets containing the written testimony, biographies, and 
truth-in-testimony disclosures for today's witnesses.
    I now recognize myself for five minutes for an opening 
statement.
    The research and development activities at the Department 
of Transportation are vital to our nation's prosperity. These 
efforts support the critical infrastructure and enhance both 
our economic competitiveness and way of life. The pathway 
forward for these programs continues to present significant 
challenges for Congress. We need to ask difficult questions to 
determine how best to address the issues facing our aging 
infrastructure within the limitations of our current budget 
environment.
    In addition to my role as Chairman of the Subcommittee, I 
also serve on the House Committee on Transportation and 
Infrastructure. In that Committee, we have had several hearings 
on new car technology, for example, and what the role Congress 
and DOT have in research and testing this technology.
    In 2014, the DOT annually supported more than $1 billion in 
research, development, and technology deployment activities 
focused on surface modes of transportation. These programs were 
last authorized in 2012 in the Moving Ahead for Progress in the 
21st Century, or MAP-21, on which I served as a conferee. These 
programs are primarily supported through the Highway Trust Fund 
and Mass Transit Fund. Trust Fund revenue, at its current spend 
rate, will be insufficient to carry out authorized programs. 
The Transportation and Infrastructure Committee is currently 
considering how to resolve this problem before Trust Fund 
depletion.
    Advancements in materials and technology, such as connected 
vehicles, autonomous cars, and positive train control, can help 
achieve long-term cost savings by reducing congestion, 
increasing economic output, reducing environmental effects, and 
improving the durability and lifespan of our transportation 
projects. It is therefore critical that we find a way to 
maintain a healthy, substantive research base behind our state 
and local transportation initiatives.
    Today's hearing will allow us to examine research, 
development, and technology priorities at the United States 
Department of Transportation and to understand the important 
policy issues regarding the future of surface transportation. 
In addition, this hearing will provide an opportunity to 
understand RD&T activities in surface transportation both at 
federally sponsored research institutions, as well as RD&T 
conducted by the private sector, and understanding how these 
advances are being utilized by state and local governments.
    I look forward to hearing today's testimony and to a 
productive and fruitful discussion on U.S. surface 
transportation research, development, technology, investments, 
priorities, and policies. I hope you will continue to work with 
us to maximize the effectiveness of surface transportation RD&T 
programs as we attempt to reauthorize our federal surface 
transportation programs.
    Again, thank you all for joining us today. It is very much 
appreciated.
    [The prepared statement of Mr. Bucshon follows:]

      Prepared Statement of Subcommittee on Chairman Larry Bucshon

    The research and development activities at the Department of 
Transportation (DOT) are vital to the nation's prosperity. These 
efforts support critical infrastructure, and enhance both our economic 
competitiveness and way of life. The pathway forward for these programs 
continues to present significant challenges for Congress. We need to 
ask difficult questions to determine how best to address the issues 
facing our aging infrastructure within the limitations of our current 
budget environment.
    In addition to my role as Chairman of this Subcommittee, I also 
serve on the House Committee on Transportation and Infrastructure. In 
that Committee, we have had several hearings on new car technology and 
what role Congress and DOT have in research and testing this 
technology.
    In 2014, the DOT annually supported more than $1 billion in 
research, development, and technology deployment (RD&T) activities 
focused on surface modes of transportation. These programs were last 
authorized in 2012 in the Moving Ahead for Progress in the 21st Century 
Act (MAP-21), on which I served as a conferee. These programs are 
primarily supported through the Highway Trust Fund and Mass Transit 
Fund. Trust fund revenue, at its current spend rate, will be 
insufficient to carry out authorized programs. The Transportation and 
Infrastructure Committee is currently considering how to resolve this 
problem before Trust Fund depletion.
    Advancements in materials and technology, such as connected 
vehicles, autonomous cars, and positive train control, can help achieve 
long-term cost savings by reducing congestion, increasing economic 
output, reducing environmental effects, and improving the durability 
and lifespan of our transportation projects. It is therefore critical 
that we find a way to maintain a healthy, substantive research base 
behind our state and local transportation initiatives.
    Today's hearing will also allow us to examine research, development 
and technology priorities at the United States Department of 
Transportation and to understand the important policy issues regarding 
the future of surface transportation. In addition, this hearing will 
provide an opportunity to understand RD&T activities in surface 
transportation both at federally sponsored research institutions as 
well as RD&T conducted by the private sector, and understand how these 
advances are being utilized by state and local governments.
    I look forward to hearing today's testimony and to a productive and 
fruitful discussion on U.S. surface transportation research, 
development, technology, investments, priorities, and policies.
    I hope you will continue to work with us to maximize the 
effectiveness of surface transportation RD&T programs as we attempt to 
reauthorize our federal surface transportation programs. Again, thank 
you all for joining us today.

    Chairman Bucshon. I now recognize the Ranking Member of the 
Committee, the gentleman from Illinois, Mr. Lipinski, for his 
opening statement.
    Mr. Lipinski. Thank you, Chairman Bucshon. Thank you for 
calling this hearing. I also want to thank our witnesses for 
appearing before us today and for their assistance in helping 
us identify the research, development, and technology needs to 
ensure safer and more efficient transportation in our daily 
lives.
    We all have multiple places we need to get ourselves and 
our families to and from in a day. We all wish that we could do 
it quicker and cheaper. The average household spends 17 percent 
of its budget on transportation. In all, transportation-related 
goods and services consume about $1.2 trillion to the U.S. 
economy.
    As a Member of the House Committee on Transportation and 
Infrastructure along with Chairman Bucshon, I have been able to 
work on several bills to authorize funds and set policies for 
road, rail, mass transit, aviation, and other critical 
transportation projects across the country. I can't 
overemphasize the need for long-term investments in 
transportation to keep people and commerce moving.
    As we focus today in this hearing on the future of surface 
transportation, I look forward to learning more from our 
witnesses about what this Committee should be thinking about, 
including in the Research Title of the upcoming surface 
transportation reauthorization.
    If we are committed to making our transportation system 
more reliable and more efficient while at the same time 
ensuring that transportation planners are wisely investing 
taxpayer dollars, we need to have a robust and effective 
transportation R&D policy. This Subcommittee last examined 
transportation R&D in 2011. Since then, Congress has passed 
MAP-21, the two-year surface transportation reauthorization law 
that expires this year. In the past, we have examined a number 
of research and development challenges faced by the Department 
of Transportation. Some of these challenges have included 
improving planning and coordination at DOT, strengthening 
technology transfer, and environmental mitigation. These remain 
important topics for discussion today.
    Safety is a top priority across all of DOT's research 
programs. I look forward to an update on the progress DOT and 
the private sector have made in developing vehicle-to-vehicle 
communication and other technology for safety and what barriers 
these face for full-scale deployment. Many of these 
technologies are precursors to technologies we will need when 
we eventually deploy self-driving cars.
    I visited a Google campus in Mountain View, California, 
last December and saw the rapid progress they are making 
towards autonomous vehicles. V2V and V2I technologies have the 
capacity to greatly increase safety and efficiency in 
transportation, and I believe autonomous vehicles are the 
logical way to maximize these gains.
    At the pace technology is currently progressing, I often 
ask people do you think a child born today will ever have to 
learn to drive a car? At this point I think it is an open 
question.
    But we shouldn't focus solely on roads and highways. Rail 
transportation is hugely important for my district as well as 
the Nation. Nearly a quarter of all freight rail traffic in the 
United States passes through Chicago and it is a major hub for 
passenger rail as well. Moving forward, we must invest more in 
R&D to ensure the safety of our rail passengers and operators. 
Preventing another tragedy like the Metro North train 
derailment in New York and the Washington Metro train collision 
must be a priority. I look forward to hearing from Dr. Barkan 
about the latest in rail and rail safety research being 
conducted at the University of Illinois.
    Through the University Transportation Center program, 
universities such as the University of Illinois play key roles 
in transportation R&D. Most DOT-funded research is applied 
research and development to address short-term needs and 
opportunities. Only a small fraction of the transportation 
research budget is dedicated to longer-term research, but it is 
through the longer-term research that will yield the big 
breakthroughs for a safer, faster, and less expensive 
transportation future. We need to ensure that universities are 
given the flexibility to pursue long-term research and that DOT 
continues to invest in mid- to long-term research through other 
programs such as the Exploratory Advanced Research Program.
    The Committee on Science, Space, and Technology should play 
an important role in defining our transportation research 
priorities in the future. I am confident that today's witnesses 
will give us some solid ideas for moving transportation 
research forward. I want this Committee to be actively involved 
in writing the Research Title in the next surface 
transportation reauthorization bill.
    Again I want to thank Chairman Bucshon for calling this 
hearing and the witnesses as well for being here. I look 
forward to your testimony and a productive discussion.
    With that, I will yield back.
    [The prepared statement of Mr. Lipinski follows:]

Prepared Statement of Subcommittee Ranking Minority Member Dan Lipinski

    Thank you, Chairman Bucshon, for calling this hearing. I also want 
to thank our witnesses for appearing before the Subcommittee and for 
their assistance today in helping us identify the research, 
development, and technology needs to ensure safer and more efficient 
transportation in our daily lives.
    We all have multiple places we need to get ourselves and our 
families to and from in a day and we all wish we could do it quicker 
and cheaper. The average household spends 17 percent of its budget on 
transportation. In all, transportation-related goods and services 
contribute about $1.2 trillion to the U.S. economy.
    As a Member of the House Committee on Transportation and 
Infrastructure--along with Chairman Bucshon--I have been able to work 
on several bills to authorize funds and set policies for road, rail, 
mass transit, aviation, and other critical transportation projects 
across the country. I cannot overemphasize the need for long-term 
investments in transportation to keep people and commerce moving. As we 
focus today in this hearing on the future of surface transportation, I 
look forward to learning more from our witnesses about what this 
committee should be thinking about including in the research title of 
the upcoming surface transportation reauthorization. If we are 
committed to making our transportation system more reliable and more 
efficient, while at the same time ensuring that transportation planners 
are wisely investing taxpayer dollars, we need to have a robust and 
effective transportation R&D program.
    This Subcommittee last examined transportation R&D in 2011. Since 
then, Congress has passed MAP-21, the two-year surface transportation 
reauthorization law that expires this year. In the past we have 
examined a number of research and development challenges faced by the 
Department of Transportation. Some of these challenges have included 
improving planning and coordination at DOT, strengthening technology 
transfer, and environmental mitigation. These remain important topics 
for discussion today.
    Safety is a top priority across all of DOT's research programs. I 
look forward to an update on the progress DOT and the private sector 
have made in developing vehicle-to vehicle communications and other 
technology for safety and what barriers these face for full-scale 
deployment. Many of these technologies are precursors to the 
technologies we will need when we eventually deploy self-driving cars. 
I visited the Google campus in Mountain View, California last December 
and saw the rapid progress that they are making towards autonomous 
vehicles. V2V and V2I technologies have the capacity to greatly 
increase safety and efficiency in transportation and I believe 
autonomous vehicles are the logical way to maximize these gains. At the 
pace technology is currently progressing, I often ask people, ``Do you 
think that a child born today will ever learn to drive a car?'' At this 
point, I think it's an open question.
    But we shouldn't focus solely on roads and highways. Rail 
transportation is hugely important for my district as well as the 
nation. Nearly a quarter of all freight rail traffic in the US passes 
through Chicago, and it is a major hub for passenger rail as well. 
Moving forward, we must invest more in R&D to ensure the safety of our 
rail passengers and operators. Preventing another tragedy like the 
Metro North train derailment in New York and the Washington Metro train 
collision must be a priority. I look forward to hearing from Dr. Barkan 
about the latest in rail and rail safety research being conducted at 
the University of Illinois.
    Through the University Transportation Center program, universities 
such as the University of Illinois play key roles in transportation 
R&D. Most DOT funded research is applied research and development to 
address short-term needs and opportunities. Only a small fraction of 
the transportation research budget is dedicated to longer term 
research, but it is the longer-term research that will yield the big 
breakthroughs for a safer, faster, and less expensive transportation 
future. We need to ensure that universities are given the flexibility 
to pursue long-term research and that DOT continues to invest in mid to 
long-term research through other programs, such as the Exploratory 
Advanced Research program.
    The Committee on Science, Space, and Technology should play an 
important role in defining our transportation research priorities for 
the future. I'm confident that today's witnesses will give us some 
solid ideas for moving transportation research forward and I want this 
Committee to be actively involved in writing the research title in the 
next surface transportation reauthorization bill. Again, I want to 
thank Chairman Bucshon for calling this hearing, and the witnesses as 
well for being here. I look forward to your testimony and a productive 
discussion.
    And with that I yield back.

    Chairman Bucshon. Thank you, Mr. Lipinski.
    I now recognize the Chairman of the full committee, 
Chairman Smith, for five minutes for his opening statement.
    Chairman Smith. Thank you, Mr. Chairman, and thank you for 
holding today's hearing.
    The future of America's transportation systems is rooted in 
the effective development and use of new technologies. 
Technology allows us to enhance both the capacity and safety of 
our roadways, to better control traffic congestion and to 
extend the life of our transportation infrastructure.
    The Moving Ahead for Progress in the 21st Century Act of 
2012 outlines the Department of Transportation's research, 
development, and technology priorities. These priorities 
include promoting safety, reducing congestion, improving 
mobility, preserving the environment and existing 
transportation systems, enhancing the durability of our 
infrastructure, and improving movement along our transportation 
systems.
    Taxpayer investments in these areas should be targeted to 
achieve desired outcomes. The investments we make today will 
transform the future of transportation. One example is the 
development of intelligent transportation systems. Such 
cutting-edge concepts encompass a broad range of information 
and communications technologies that have the potential to 
improve the safety, efficiency, and performance of our nation's 
transportation system.
    In my home State of Texas, the Texas A&M Transportation 
Institute (TTI) works to develop interdisciplinary solutions to 
the challenges that face all modes of transportation. And I 
appreciate having a witness today, Mr. Maddox, from TTI. I look 
forward to his testimony later on. TTI has saved the State of 
Texas and the United States billions of dollars and thousands 
of lives through innovative strategies and products developed 
through its research and implementation programs. For example, 
TTI conducts groundbreaking research to explore the interaction 
between driver, cell phone, and roadway, and assesses the 
dangers and causes of distracted driving.
    The problems studied at TTI are good examples of how 
science can yield solutions to societal problems. It shows that 
efficient, targeted R&D can help develop new innovative ideas 
and technologies that will make our transportation systems 
safer.
    Mr. Chairman, I regret I may have to leave momentarily 
because of a markup in the Judiciary Committee that started at 
10 o'clock, but I also want to thank another witness, Ms. 
Tabar, for the increasing presence of Toyota in Texas. Please 
keep it up.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Smith follows:]

                 Prepared Statement of Full Committeee
                        Chairman Lamar S. Smith

    Thank you Chairman Bucshon for holding today's hearing.
    The future of America's transportation systems is rooted in the 
effective development and use of new technologies. Technology allows us 
to enhance both the capacity and safety of our roadways, to better 
control traffic congestion, and to extend the life of our 
transportation infrastructure.
    The Moving Ahead for Progress in the 21st Century Act of 2012 
outlines the Department of Transportation's research, development and 
technology priorities. These priorities include promoting safety, 
reducing congestion, improving mobility, preserving the environment and 
existing transportation systems, enhancing the durability of our 
infrastructure, and improving movement along our transportation 
systems.
    Taxpayer investments in these areas should be targeted to achieve 
desired outcomes. The investments we make today will transform the 
future of transportation. One example is the development of intelligent 
transportation systems. Such cutting edge concepts encompass a broad 
range of information and communications technologies that have the 
potential to improve the safety, efficiency, and performance of our 
nation's transportation system.
    In my home State of Texas, the Texas A&M Transportation Institute 
(TTI) works to develop interdisciplinary solutions to the challenges 
that face all modes of transportation. TTI has saved the state of Texas 
and the United States billions of dollars and thousands of lives 
through innovative strategies and products developed through its 
research and implementation programs. For example, TTI conducts 
groundbreaking research to explore the interaction between driver, cell 
phone and roadway, and assesses the dangers and causes of distracted 
driving.
    The problems studied at TTI are good examples of how science can 
yield solutions to societal problems. It shows that efficient, targeted 
R&D can help develop new innovative ideas and technologies that will 
make our transportation systems safer.
    I look forward to the witnesses' testimony and thank them for their 
participation this morning. And I yield back.

    Chairman Bucshon. That was a good plug for Texas, Mr. 
Chairman.
    Thank you. If there are other Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Ms. Johnson follows:]

                 Prepared Statement of Full Committeee
                  Ranking Member Eddie Bernice Johnson

    Good morning, I would like to thank the Chairman for holding 
today's hearing to examine the impact of research and technology on the 
future of transportation.
    Our economy depends on our ability to move people and goods 
efficiently from one point to another. I have been representing the 
Dallas area in Congress for over 20 years. Our central location helps 
attract multinational corporations. Dallas is home to major sports and 
entertainment venues and has a world class hospital system.
    This year we had the third largest population increase in the 
nation and the third busiest airport in the world. We have five 
interstate highways, a growing transit system, and a major rail 
corridor. In fact, Dallas was the capstone city for Secretary Foxx's 
national bus tour earlier this year highlighting the importance of 
transportation investment across the country.
    Alongside the bricks and mortar infrastructure investments, 
continuing investments in transportation research and development will 
be critical to the future viability of this thriving city and the 
cities across the nation.
    The nation's Interstate Highway System, a significant achievement 
of the Eisenhower Administration, is now nearly 60 years old. Our state 
DOTs are constantly repairing the decades-long wear and tear we have 
put on our roads, bridges, and tunnels. While growth across the country 
increases jobs and revenue, it also increases traffic congestion, 
accidents, and air pollution.
    Fortunately, we are approaching a turning point in transportation 
technology and innovation. The ideas that our witnesses will share 
today, including vehicle-to-vehicle communications systems, have the 
potential to help reduce American's commute times, reduce accidents on 
our highways and railroads, and reduce emissions.
    As a longtime supporter of public transportation, including Dallas 
Area Rapid Transit, I am also interested in hearing about the 
Department's innovative transit research, including how ridesharing may 
be changing our thoughts on public transportation. As transportation 
continues to become more high tech, it is important that we incorporate 
transportation applications in the teaching of STEM fields so that our 
students are prepared to join the workforce in this important area.
    As more students look to transportation as a field of study, we 
should make sure policies are in place to support long-term research 
that will lead to revolutionary improvements in the safety and 
efficiency of our transportation systems. To reap the benefits of this 
paradigm-shifting research, my colleagues and I must come together from 
both sides of the aisle to support a multi-year, bipartisan 
transportation reauthorization bill that includes strong research 
provisions.
    We can and should act now with sensible public policies to secure 
jobs, create growth, and provide for safe, clean, and efficient 
transportation. Again, I thank the witnesses for being here today and 
look forward to their testimony.

    Chairman Bucshon. At this time I would like to introduce 
our witnesses. Our first witness is Hon. Gregory D. Winfree, 
the Assistant Secretary for Research and Technology at the U.S. 
Department of Transportation. Mr. Winfree previously served as 
the Research and Innovative Technology Administration's Chief 
Counsel, Deputy Administrator, and Acting Administrator, and as 
Chairman of the Department of Transportation's Innovative--
Innovation Council. Mr. Winfree also served as Chief Litigation 
Counsel for Freeport-McMoRan Corporation and as Director of 
Litigation for Wyeth Pharmaceuticals. Mr. Winfree earned a BS 
degree in communications, public relations from St. John's and 
a J.D. from Georgetown University. Thanks for being here.
    Our second witness is Mr. Scott Belcher, the President and 
CEO of the Intelligent Transportation Society of America. Prior 
to joining ITS America, Mr. Belcher served as Executive Vice 
President and General Counsel at the National Academy of Public 
Administration. Mr. Belcher holds a juris doctor from the 
University of Virginia, a master of public policy degree from 
Georgetown, and a bachelor of arts degree from the University 
of Redlands. Thanks for being here.
    Our third witness is Mr. John Maddox, the Director of 
Collaborative Program Strategy at Texas A&M Transportation 
Institute and the University of Michigan Transportation 
Institute. Mr. Maddox previously served as the Associate 
Administrator for Vehicle Safety Research at the National 
Highway Traffic Safety Administration, or NHTSA. Before working 
at NHTSA, Mr. Maddox spent over five years with Volkswagen 
Group as a Compliance Officer and 14 years with Ford Motor 
Company as a Senior Research Engineer. Thank you for being 
here.
    Our fourth witness is Ms. Kristin Tabar. Did I pronounce 
that correctly? Ms. Tabar is the Vice President for the 
Technical Administration Planning Office at Toyota Technical 
Center. Prior to her current assignment, Ms. Tabar was the Vice 
President of Electrical Systems Engineering. She previously 
served as General Manager for Electrical Systems-1 department. 
Prior to joining Toyota Technical Center, Ms. Tabar worked as a 
Contract Engineer with a Ford supplier. Ms. Tabar holds a 
bachelor of science degree in electrical engineering from the 
University of Michigan. Thanks.
    Our--we are getting there. Our fifth witness is Dr. 
Christopher Barkan. Dr. Barkan is Professor and George Krambles 
Faculty Fellow at the University of Illinois at Urbana-
Champaign, my alma mater by the way. Thanks for being here. He 
also serves as Executive Director for the Rail Transportation 
and Engineering Center. Prior to moving to the University of 
Illinois, he was the Director of Risk Engineering at the 
Association of American Railroads. Dr. Barkan received his 
bachelor's degree from Goddard College and his M.S. and Ph.D. 
from State University of New York at Albany. Thank you.
    And our final witness is Troy Woodruff from my home State 
of Indiana. Mr. Woodruff currently serves as the Chief of Staff 
for the Indiana Department of Transportation. Previously, Mr. 
Woodruff served as the INDOT Deputy Commissioner of Operations. 
Before joining the Indiana Department of Transportation, Mr. 
Woodruff held consecutive Regional Director positions with the 
Indiana Department of Environmental Management and WellPoint. 
Mr. Woodruff is a graduate of Indiana State University with a 
degree in communications. Thanks for being here.
    And thanks to all our witnesses for being here. I know you 
have to take a lot of time to prepare and to travel to be here. 
It is very much appreciated.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the committee 
will have five minutes each to ask questions.
    I now recognize Mr. Winfree for five minutes to present his 
testimony.

         TESTIMONY OF THE HONORABLE GREGORY D. WINFREE,

                      ASSISTANT SECRETARY,

           UNITED STATES DEPARTMENT OF TRANSPORTATION

    Mr. Winfree. Thank you so much, Chairman Bucshon, Ranking 
Member Lipinski, Chairman Smith, and Members of the 
Subcommittee, thank you for the opportunity to appear before 
you here today to discuss the challenges and future 
opportunities of the Department of Transportation's Surface 
Transportation Research Programs. I have submitted my full 
testimony for the record, so in the interest of time I will 
highlight a couple of major themes from my testimony and then I 
am happy to respond to your questions.
    Transportation research, technology, and data are critical 
tools for improving the safety, efficiency, mobility, capacity, 
and state of good repair of America's transportation system and 
for reducing transportation's environmental and societal 
impacts. The Office of the Assistant Secretary for Research and 
Technology is pleased to continue to lead the Department's 
research coordination efforts driving cross-modal collaboration 
to meet 21st century challenges.
    While my written statement touches on a broad cross-section 
of the Department's surface research programs, I am going to 
discuss two programs managed out of my office that will help us 
meet these challenges. First, the University Transportation 
Centers Program: Covering over 120 universities which bring 
expertise in multiple disciplines both traditional--as in civil 
engineering--and not traditional, such as public health, 
psychology, sociology, studying safety culture, human factors, 
et cetera--UTCs enable the systemic interdisciplinary cross-
modal research we need to address increasingly complex 
challenges that cross traditional boundaries. UTCs do this 
while educating undergraduate and graduate students in the 
technical and problem-solving skills we need going forward, 
which is a win-win if ever I have heard one.
    I always enjoy the opportunity to meet with the bright 
young students at our UTCs to hear about what exciting things--
what exciting new things they are developing in the 
laboratories and in the classrooms and how their own lives are 
changing even as they add to our transportation knowledge. I 
certainly encourage the Members of this committee to take those 
opportunities to meet those students as well.
    The second significant research program I would like to 
highlight is the Intelligent Transportation Systems Research 
program. The department has completed the Connected Vehicle 
Safety Pilot Program in Ann Arbor at the University of Michigan 
Transportation Research Institute. That research informed the 
resulting National Highway Traffic Safety Administration's 
(NHTSA) February decision to move forward with vehicle-to-
vehicle communication technology to enable significant accident 
avoidance and other safety applications in light-duty vehicles.
    This technology will improve safety and has the potential 
to reduce non-impaired crashes by up to 80 percent. It would do 
so by allowing vehicles to talk to each other and ultimately 
avoid many crashes altogether by exchanging basic, anonymous 
safety data such as speed and position 10 times per second.
    This major decision was based largely on the research, 
technology developments, test deployments, and data collection 
and analyses conducted under the ITS Research program. The 
Department continues to work collaboratively across the 
operating administrations toward connected vehicle applications 
for heavy-duty vehicles and our colleagues at the Federal 
Highway Administration are preparing to issue guidance in 2015 
for installing vehicle-to-infrastructure applications for 
roadway safety and improved traffic operations and maintenance.
    Additionally, ITS is using connected vehicle technology 
research to reduce congestion, improve road weather information 
and real-time data capture, and reduce emissions. I note that 
all the success and the standards that support it are based 
upon the availability of the 5.9 gigahertz dedicated short-
range communication spectrum. Allocated in the United States 
and internationally for transportation safety, the 5.9 
gigahertz band was specifically selected to enable the 10 times 
per second exchange of information needed to bring to reality 
the safety improvements that remain the primary goal of ITS 
research.
    We are actively involved in ongoing discussions related to 
the FCC's proposal in its notice of proposed rulemaking to 
permit unlicensed devices, e.g., wideband--broadband Wi-Fi and 
UNI devices to operate in the 5.9 gigahertz spectrum currently 
licensed for DSRC.
    The Department also intends to participate in the National 
Telecommunications and Information Administration's upcoming 
technical analysis related to understanding interference and 
sharing of the 5.9 gigahertz spectrum. Sorry. Watching the 
clock go down gets you a little antsy.
    We believe that the FCC and the NTIA must ensure that 
unlicensed devices do not compromise safety through harmful 
interference to the ITS architecture, operations, or safety 
critical applications if permitted to operate in the 5.9 
gigahertz band. We have very serious concerns about any 
spectrum sharing that prevents or delays access to the desired 
channel or otherwise preempts the safety applications.
    At this time the Department is unaware of any existing or 
proposed technical solution that guarantees interference-free 
operation of the DSRC safety critical applications while 
allowing Wi-Fi devices to share the 5.9 spectrum.
    So in closing, I am excited about the research being 
conducted at the U.S. Department of Transportation. We are 
addressing serious issues serious in serious ways for the 
benefit of the traveling public. I look forward to answering 
your questions.
    [The prepared statement of Mr. Winfree follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you very much for your testimony. I 
appreciate it.
    I now recognize Mr. Belcher for five minutes to present his 
testimony.

                TESTIMONY OF MR. SCOTT BELCHER,

                       PRESIDENT AND CEO,

         INTELLIGENT TRANSPORTATION SOCIETY OF AMERICA

    Mr. Belcher. Thank you. Good morning.
    Chairman Bucshon, Ranking Member Lipinski, and Members of 
the Subcommittee, thank you for inviting me to testify on the 
future of surface transportation and the research and 
development efforts underway that will drive this nation to 
developing a fully modernized, 21st century transportation 
system.
    The Intelligent Transportation Society of America is the 
Nation's largest transportation association that brings 
together transportation, technology, and research communities 
to promote technological solutions for our nation's safety, 
infrastructure, and mobility challenges. About half of our 
nearly 500 members are public agencies, University 
Transportation Centers, and research labs. The other half are 
private sector companies that range from the automobile 
manufacturers to high-tech, telecommuting--or telecom, tolling, 
infrastructure firms, actually all the way to small businesses, 
startups, and entrepreneurs.
    Intelligent Transportation Systems represent the future of 
surface transportation, especially in a resource-constrained 
environment, and they encompass a broad range of information 
and communication technologies that are and that will continue 
to improve system performance. Examples of intelligent 
transportation systems include synchronized and adaptive 
traffic signals, electronic tolling and payment systems, real-
time traffic, transit, routing, parking, and freight systems, 
collision avoidance and response technologies, vehicle-to-
vehicle technologies, autonomous vehicles, high occupancy toll 
lanes, among many other high tech solutions. So it is really a 
very broad platform in which we are looking to try to bring 
solutions to our system.
    As you know and as Assistant Secretary Winfree just 
mentioned, in February the Department of Transportation 
announced that it was moving forward with the deployment of 
vehicle-to-vehicle communications technology. Also as Assistant 
Secretary Winfree said, U.S. DOT estimates that this will 
reduce crash scenarios--unimpaired crash scenarios by more than 
80 percent. That is huge. It is bigger than seatbelts, bigger 
than electronic stability control, it is bigger than airbags.
    This is a major milestone for the future of vehicle safety 
and traffic congestion and it has been the result of many years 
of research in vehicle-to-vehicle technology by the Department 
of Transportation and by the private sector, by the automobile 
manufacturers. Without this collaboration, we wouldn't be where 
we are today at the--poised to move towards deployment.
    Connected vehicle technology truly represents the next 
giant leap for vehicle and highway safety. Historically, the 
automobile industry has focused on protecting people in a 
crash. This new technology will allow the auto industry to 
focus on preventing crashes. Imagine a transportation system 
where cars don't crash and how different that could be. Imagine 
the vehicles that can be built when you are not trying to 
protect people in those crashes.
    Vehicle-to-vehicle communications technology operates on 
dedicated short-range communications within the 5.9 gigahertz 
bands of spectrum. This spectrum was set aside by the Federal 
Communications Commission to ensure high-speed, accurate, 
secure, and reliable communications, which are critical for 
connected vehicles. It is essential that the availability and 
performance of the spectrum is protected for safety purposes 
while also freeing up additional spectrum for Wi-Fi where it 
makes sense and where it can be done without jeopardizing 
safety. So we are not opposed to sharing; we just need to make 
sure that that sharing doesn't put the critical safety 
applications at risk.
    Today's market is enchanted by driverless vehicles. They 
are creating tremendous excitement around the industry and 
around the world. The future of autonomous vehicles would 
benefit greatly from federally funded research conducted in 
partnership with the academic institution, United States 
Department of Transportation, and the private sector to model 
the safety benefits of commercially available autonomous motor 
vehicle technology.
    Furthermore, both autonomous and connected vehicles produce 
incredible amounts of data which will need to be collected, 
analyzed, and secured, and in some cases, made available. While 
this provides a tremendous opportunity for innovation, new 
businesses, new opportunities, our future transportation 
network faces real threats from cybersecurity attacks and real 
concerns about driver anonymity in this system.
    Sustained research and development will be critical for 
ensuring uncompromised security and--whereas autonomous--
anonymity is already possible through the dedicated short-range 
communication protocols which allow for beaconing between 
vehicles, as well as between vehicles on the roadside. Such 
communications create immediate awareness for the driver and 
the vehicles surrounding it but cannot enable recognition of 
other vehicles.
    In summary, vehicle-to-vehicle technologies represent the 
future of surface transportation, safety, mobility, and traffic 
congestion mitigation. With more than 33,000 fatalities 
annually on our Nation's roadways, continued full funding of 
the ITS Research Program will be critical in reducing these 
preventable tragedies and keeping the United States ahead when 
it comes to transportation and our transportation system.
    The innovations that we will talk about today will be 
showcased next Wednesday at the Cannon Caucus Room at the ITS 
America Technology Fair, and I invite you all to come and see 
these technologies. They will also be showcased in Detroit in 
September at the 21st ITS World Congress. We will be 
demonstrating autonomous vehicles, connected vehicles, and the 
whole suite of ITS technologies.
    I thank you for the opportunity to testify and look forward 
to answering your questions.
    [The prepared statement of Mr. Belcher follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Maddox for five minutes to present his 
testimony.

                 TESTIMONY OF MR. JOHN MADDOX,

          DIRECTOR OF COLLABORATIVE PROGRAM STRATEGY,

             TEXAS A&M TRANSPORTATION INSTITUTE AND

        UNIVERSITY OF MICHIGAN TRANSPORTATION INSTITUTE

    Mr. Maddox. Good morning. Thank you, Chairman Bucshon, 
Ranking Member Lipinski, Chairman Smith, and all the Members of 
the Subcommittee, for the chance to speak with you today. I am 
honored to speak on behalf of Texas A&M Transportation 
Institute about the future of surface transportation technology 
and key research needed for creating a much safer and more 
efficient transport system.
    Transportation is the lifeblood of our economy and society. 
Our current surface system has served us well for the last 100 
years; however, it is showing signs of strain. Yet our society, 
economy, and international economic competitiveness depend 
directly on the ability to transport people and goods in an 
efficient manner. Largely, we have accepted undesirable 
outcomes of crashes, congestion, and wasted energy, as stated 
earlier, as the status quo. We have attempted to address these 
problems of course, primarily with separate siloed approaches 
for vehicles, roads, and human behavior, but those separate 
approaches are only producing incremental results instead of 
the significant breakthrough improvements that we need. It is 
clear we need a significant change.
    The next wave of breakthrough innovation will be connected 
vehicles, first connected to each other through V2V, then to 
roadway and infrastructure devices through V2I, then finally to 
other vulnerable road users such as pedestrians, motorcyclists, 
and bicyclists. And collectively, these technologies represent 
a critical component of the transportation future. The first of 
these, V2V, has a foreseeable path to deployment through a 
NHTSA mandate or consumer information program, though focused 
and applied research remains needed to bring it to a point 
where it is ready to be deployed at scale. This includes 
research to support NHTSA's rigorous rulemaking process, 
research on spectrum congestion, and field testing of the 
Security Credential Management System which is critical to the 
operation of that V2V system, amongst others.
    Policy is equally important and significant progress has 
been made over the last three to four years, but additional 
research is needed in a few key areas. Privacy has been one of 
the key policy aspects identified since the inception of the 
V2V program. The V2V system has been designed from the very 
beginning to be very protective of privacy of individual 
drivers or vehicle owners or operators, and the result is that 
the basic message that is broadcast from these vehicles is 
anonymous and contains no information that identifies the 
vehicle or driver. By design, the system does not track or 
record vehicle movement. Because of this, it is practically 
impossible to track the location or meaningful path history of 
a vehicle or person through the V2V system, as contrasted to 
the relative ease of doing so with cell phones.
    Additionally, similar protections are designed into the 
Security Credential Management System that is being finalized 
by the automotive OEMs with help from experts in academia and 
the security industry. Of course no electronic data system is 
completely impervious to cyber attacks and hacking and vehicles 
are potential targets of such attacks. Therefore, it is prudent 
to continue conducting research on that topic for vehicles and 
infrastructure.
    While liability concerns may slow U.S. deployment of fully 
cooperative systems, other countries may very well benefit 
first from the technologies developed here. Because of this, it 
is advised to consider policy research and to share liability 
regimes, including limiting but not eliminating the liability 
of automakers and other device makers, as well as the operators 
of connected infrastructure so that we can realize the greater 
societal benefit of these technologies sooner.
    While V2V has a clear path for deployment, much research 
remains to be done on V2I. The United States needs a V2I 
deployment strategy that clearly supports and funds the 
voluntary installation of connected vehicle technology by state 
and local governments and is directly supported by research and 
field operational tests that demonstrate and quantify the cost 
and benefit of these systems. These results will allow state 
officials to make informed decisions on whether to invest on 
these deployments that are beneficial to their individual 
transportation needs.
    U.S. DOT has signaled that it intends to sponsor such V2I 
field operational tests in the 2015 through 2018 time frame. 
This is a critical step towards deployment of V2I and this 
research effort should be fully funded.
    Importantly, vulnerable road users make up 30 percent of 
our traffic fatalities and this is a growing number. Research 
must be funded and started on establishing connected 
applications for their safety and mobility, including V2P, V2--
V2Pedestrian, V2Bicycle, and V2Motorcycle.
    Alongside the development of connected vehicle 
technologies, research on automation will occur simultaneously. 
These technologies are not competing against each other but are 
actually very complementary. Automated vehicle research is 
proceeding at a rapid pace but it is clear that operation of 
these vehicles will rely on having a human in the driver's seat 
for some time to come. This is partially due to technical 
limitations but also to yet-unanswered policy questions.
    The U.S. DOT can help the industry developed these AV 
technologies with studies on how connection complements 
automation, how improved or enabled infrastructure can aid 
automated vehicles, and policy research would be very helpful 
as U.S. DOT is in the unique position, along with the state 
DOTs, to begin to address some of these key questions.
    In closing, U.S. DOT, along with industry, academia, and 
other governmental bodies, should continue its very successful 
public-private research program on connected transportation and 
be funded to finish the work we started on this technology as 
it holds great promise for improving our transportation system 
and our economic competitiveness.
    I appreciate this opportunity very much. Thank you for your 
attention. I look forward to your questions.
    [The prepared statement of Mr. Maddox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Bucshon. Thank you very much for your testimony.
    I now recognize Ms. Tabar for her five minutes.

                TESTIMONY OF MS. KRISTEN TABAR,

                        VICE PRESIDENT,

           TECHNICAL ADMINISTRATION PLANNING OFFICE,

                    TOYOTA TECHNICAL CENTER

    Ms. Tabar. Thank you, Chairman Bucshon, Ranking Member 
Lipinski, and Members of the committee, for giving me this 
opportunity to testify before you this morning.
    Toyota has a long-standing and unwavering commitment to 
research and development. As the world's top-selling automaker, 
Toyota spends over $1 million per hour globally on R&D 
activities that range from basic research to the development of 
new technologies and products. This commitment is evident in 
the United States where we have world-class R&D facilities. For 
example, the Toyota Technical Center where I work is Toyota's 
leading technical center outside of Japan. Today we have over 
1,100 engineers, scientists, and technologists that work in our 
facilities in California, Michigan, and Arizona to develop the 
smartest and most advanced vehicles.
    The automobile is currently undergoing a technological 
transformation that is reducing crashes, improving fuel 
efficiency, and bringing greater convenience and improved 
quality of life to the drivers and passengers. Much of what is 
to come will be made possible by the increasing level of 
connectivity, including the ability for the vehicles to 
communicate with each other and infrastructure around them.
    Vehicle-to-vehicle, or V2V, and vehicle-to-infrastructure, 
or V2I, communications are such technologies. The revolutionary 
advances in sensor-based technologies that we are bringing to 
the automotive safety can be enhanced even further through 
these V2V and V2I communication technologies. They have greater 
range, better field of view, and better line of sight than the 
sensor-based technologies and therefore can identify collision 
threats much--at a much longer distance or with a vehicle that 
is out of sight. It is complementary to combine these 
technologies with the communication technologies and on-board 
sensors that allow us to make progress towards our ultimate 
goal of zero casualties and zero vehicle crashes.
    Although our initial focus is on safety applications, the 
technology will be used for many other applications beyond the 
collision avoidance. For example, it can be used to assist with 
navigation, making electronic payments, for example, tolls or 
parking, improving fuel efficiency through speed pacing at 
traffic lights, or gathering and disseminating real-time 
traffic information. This type of technology also unleashes the 
creativity and innovative spirit and connected car applications 
that are just now starting to be imagined or envisioned.
    Toyota is committed to this critical safety technology. In 
Japan we have already commercialized the first generation of 
V2I communication technologies and providing detailed traffic 
information, lane merges, and other road condition information. 
In addition, several months ago we announced the 
commercialization in Japan of an automated highway driving 
system. This revolutionary technology will combine next-
generation lane trace control and cutting-edge cooperative 
adaptive cruise control that will use V2V communications to 
help maintain a safe distance from the vehicles in front of 
you. We intend to bring these technologies to the U.S. market 
in the very near future.
    A few key challenges do remain but there are a number of 
steps that Congress and the federal government could take to 
help us overcome these. First, the federal government should 
preserve and protect the spectrum that is necessary to support 
these communication technologies in the United States. The use 
of the spectrum allocated for V2V and V2I communication is 
unlicensed--by unlicensed devices raises significant concern 
about harmful interference. This could result in undermining 
the integrity of the system. We cannot deploy this type of 
technology unless the possibility of this interference is ruled 
out.
    We are working closely with our partners to make sure that 
sharing of the spectrum is possible. However, this is a big 
technological challenge and needs time and effort and testing 
to prove out. We strongly discourage Congress or the FCC from 
taking any further action to force the sharing before a viable 
solution is found.
    Second, the V2I communication technology offers important 
supplemental benefits that should not be ignored. These V2I 
also provide a means by which the transportation planners can 
gain important information about how the roads are used and 
being used in the future. Congress and the DOT should be 
looking at ways to incentivize or facilitate the build-out of 
the intelligent transportation infrastructure and V2I 
communications.
    Thirdly, we encourage NHTSA to proceed expeditiously at the 
formation of the communication rules that it announced in 
February. The sooner we have clarity on this subject, the 
better we will be able to incorporate their requirements into 
our commercialization plans in the United States.
    Finally, the DOT can play an important role in continuing 
the development and research for roadside infrastructure and 
testbeds. At the same time, we are very eager to move to these 
commercial deployment phases of our technology and we encourage 
the DOT to focus additional resources on helping ensure a 
smooth and rapid deployment of the technology, including 
education and outreach activities.
    As with any new technology, there are legitimate concerns 
about security and privacy. However, these are of utmost 
importance to Toyota and we have been considering those from 
the very outset. We have taken important measures to make sure 
that only legitimate messages and authorized devices are on the 
system.
    Thank you again for the opportunity to testify before you 
today. It is a very important and exciting time in the 
automobile industry and I look forward to working with the 
Committee on the benefits of this technology. Thank you very 
much.
    [The prepared statement of Ms. Tabar follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairman Bucshon. Thank you for your testimony.
    I now recognize Dr. Barkan for his testimony.

           TESTIMONY OF DR. CHRISTOPHER P.L. BARKAN,

         PROFESSOR AND GEORGE KRAMBLES FACULTY FELLOW,

                      EXECUTIVE DIRECTOR,

          RAIL TRANSPORTATION AND ENGINEERING CENTER,

           UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Dr. Barkan. Thank you, Chairman Bucshon, Ranking Member 
Lipinski----
    Chairman Bucshon. Mike. Is your mic on?
    Dr. Barkan. Sorry. Thank you, Chairman Bucshon, Ranking 
Member Lipinski, and Members of the Subcommittee. I appreciate 
you inviting me to participate in this important discussion 
today.
    In addition to my role as a Professor at the University of 
Illinois, I also wanted to mention that I serve as the 
Executive Director of the Rail Transportation and Engineering 
Center and as Director of the National University Rail Center. 
The NURail Center is funded by the U.S. DOT and it is one of 
the UTCs that Secretary Winfree already referred to. In 
addition to our university, it includes the University of 
Illinois at Chicago, University of Kentucky, University of 
Tennessee Knoxville, Massachusetts Institute of Technology, the 
Michigan Technological University, and Rose-Hulman Institute of 
Technology in Indiana.
    Prior to my position with the university, I worked with the 
Association of American Railroads here in Washington where I 
managed and conducted research to improve the environmental and 
safety performance of railroads. The point is that rail 
research has been the principal focus of my entire professional 
career of 26 years with the AAR and the university.
    Now let me state at the outset that the opinions I express 
here are my own and do not necessarily represent those of the 
University of Illinois.
    As has already been stated, the economic competitiveness of 
the United States depends on safe, reliable, and efficient 
movement of goods and people over an integrated, multimodal 
transportation network. Rail plays an essential role in this 
system. Each transport mode has a particular niche and use of 
an inappropriate mode for the incorrect task reduces U.S. 
efficiency, competitiveness, and environmental sustainability. 
Changing demands of the transportation system will require new 
approaches to meet 21st century needs and effectively 
responding to these changes requires research to develop 
solutions.
    Railroads uniquely combine high speed and energy efficiency 
with the ability to safely move large quantities of heavy 
freight or large numbers of passengers at low cost. The demand 
for greater efficiency and capacity in the U.S. transportation 
system means that rail's already important role will increase 
and research is needed to help fulfill this potential.
    Overseas, passenger rail transport has become highly 
advanced. Meanwhile, a similar transformation has occurred on 
North American freight railroads, which have developed 
sophisticated technologies that allow them to efficiently move 
enormous volumes of freight. This benefits the U.S. economy and 
society, so a significant issue facing the U.S. rail community 
is how to improve passenger rail service while at the same time 
helping our freight rail system continue to prosper. The 
Federal Railroad Administration, the AAR, the NURail Center, 
and other organizations are conducting strategic research aimed 
at improving rail safety, efficiency, capacity, environmental 
impact, and performance, which all benefit U.S. economic 
competitiveness. Addressing these is a principal theme of the 
NURail Center, especially as they relate to shared rail 
quarters. Among the challenges to implementing research is 
adapting regulations to take full advantage of advanced 
technologies that can improve rail safety.
    Another challenge is that rail research receives much less 
funding than other modes. The development of beneficial NURail 
technologies and solutions could be accelerated if more funding 
were available.
    The NURail Center is a consortium of seven colleges and 
universities that I already mentioned. It was formed in 2012 
and it is the first rail-focused U.S. DOT UTC. Its role is 
particularly important because, by the late 20th century, rail 
research and education had nearly disappeared from U.S. college 
campuses with the resultant decline in graduates educated in 
the principles of rail engineering and transport. Ironically, 
this coincided with the increasing demand for such students due 
to the renaissance of the U.S. railroads. The NURail Center's 
mission includes rail education, research, and technology 
transfer, all of which include significant railroad workforce 
development activities aimed at undergraduates, graduate 
students, and other students of all ages.
    Now, as the Chairman has already mentioned, Congress 
understands the need for funding transportation infrastructure 
and it should be equally mindful of the corresponding need for 
a new generation of well-educated transportation professionals 
to plan, design, build, and operate the most efficient 
transportation system in the world.
    The UTC Research Program is critical to development of the 
transportation solutions needed for the 21st century and 
educating the next generation of transportation professionals. 
The UTC program should be reauthorized in full with a clear 
multi-modal focus that allows centers to take full advantage of 
all their strengths addressing interrelated U.S. DOT strategic 
goals. It should also allow other government agencies to fund 
additional centers beyond the core program. Finally, 
competitive selection of centers helps ensure that U.S. UTC 
awards are based on merit and that the program will provide 
maximum value to U.S. taxpayers and to the transportation 
community.
    Thank you very much and I would be happy to take any 
questions.
    [The prepared statement of Dr. Barkan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Woodruff for five minutes for his 
testimony.

        TESTIMONY OF MR. TROY WOODRUFF, CHIEF OF STAFF,

              INDIANA DEPARTMENT OF TRANSPORTATION

    Mr. Woodruff. Thank you, Mr. Chairman, Ranking Member 
Lipinski, and Members of the Subcommittee. I appreciate this 
opportunity to appear here today and take part in this 
important discussion about research and development.
    [Slide]
    The first slide I have today shows--we had a 75-year 
collaborative effort--in all due respect to our friend from 
University of Illinois here--but with Purdue University where 
we have done a lot of research and innovative projects in 
cooperation for the last 75 years. Annually, the state DOT we 
are mandated--required to spend 25 percent of our SBR funds, so 
our planning dollars, towards research. We choose to spend 40 
percent in actual spending. That has--should be an indicator 
about how important the State of Indiana and the DOT view this 
research within our transportation system.
    Next slide.
    [Slide]
    How do we look at projects and how do we make decisions on 
which projects to fund? One, it has to be deliverable, it has 
to be in the near-term and mid-term. We have to be able to have 
it and we have to be able to have it quickly. Any project that 
comes before us that were looking to fund, it has to either 
make us better, faster, or be able to do something cheaper, or 
be able to make--provide some sort of a safety improvement to 
our infrastructure. We are looking for solutions today to the 
problems of today on our infrastructure.
    We believe in a measure-versus-model formula in which case 
what we are saying is if we are going to do a research project, 
it has to be measurable. We believe that you have to be able to 
keep score. If you are not keeping score, it is just practice. 
It is not really applied, it is not helping our infrastructure, 
it is not helping our travelers.
    The recent focus areas we are looking at today, we are 
looking at data from probe vehicles, so that is information 
provided by a third party, which we get in real time. We are 
also looking at data from infrastructure, which has to do with 
traffic signal controllers and the technology that is available 
there at the actual signal itself.
    Next slide.
    [Slide]
    Okay. So data from probes, you will see a couple different 
things that we are looking at. The first left half of this 
slide you will see recurring congestion. That is I-65 in the 
State of Indiana from one end of the State to the other where 
you see those high concentrations of color. That is where we 
have congestion problems. What this slide does for us, it gives 
us another basis for making good decisions when it comes to 
investment of our transportation dollars. We want to solve 
problems when we are making these investments in what projects 
we pick and how we pick them. That is one way the probe data 
helps us.
    The other is when we have accidents, crashes, you will have 
your initial crash. In real time we see the queue build up and 
in real time we can dispatch our people or the State Police so 
that we can stop the often fatal secondary crashes because 
people are coming up on the crash, they don't see the traffic 
stopped, and that is where you have the additional secondary 
crashes. So what we are able to do with this real-time data is 
we see where it is queuing, we can send our resources, get 
people off the road, get them slowed down so that we were 
making it safe today, immediately.
    Winter weather operations, we look at--we can look at a 
snow event and we can look at the data that comes from that 
snow event on that day to see how traffic is moving and that 
will tell us the next day from our measurement perspective how 
well did we handle getting the snow off the road, how safe did 
we make our roads? So in real time we are able to get this 
data, we are able to make decisions in real time that allows us 
to, one, protect our motorists; and two, make good smart 
decisions with the precious dollars we are given to make 
investments.
    Next slide, please.
    [Slide]
    The other data comes from infrastructure. You know, 
whenever we talk about signals, it is how are we moving people 
through from green to red? So when you see those little black 
dots on there, those are all cars, and what we want to see is 
those large groups make it through our signals on green so that 
we have free flow of traffic the best we can provide. Prior to 
this technology, you had to wait and you would get calls from 
people complaining, which I am sure none of you all get those 
calls, but--so as you get those calls, that is when you would 
saddle up a signal tick, you would send him out there, and we 
would retime it based on a model that says cars should be going 
35 or 40 miles an hour through here. Well, now in real time we 
can make those decisions to say, hey, hold on a second; let's 
make sure our signal timings match up so we can get the maximum 
amount of cars free flowing through our roads.
    The other way we look at it is a volume versus capacity, so 
if we are not getting enough cars through on a left turn lane, 
we only have so much volume, so much capacity that tells us we 
have to readjust some other signal to add volume or to be able 
to handle capacity.
    So those are just a few examples of how we are using our 
R&D dollars today to problem--solve problems today. From a 
policy perspective, it is just two things that I would 
encourage the Committee to think about. One is continue to give 
us flexibility on funding. The more flexibility we have and how 
many dollars we spend towards this effort, the better for us to 
make those smart decisions. And two, allow us the ability to 
choose the projects that meet our needs so that we are funding 
the projects that help our infrastructure.
    Again, I appreciate the opportunity to appear before the 
Committee and I look forward to answering any questions you 
might have.
    [The prepared statement of Mr. Woodruff follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Bucshon. Thank you very much. And thank all of you 
for your testimony.
    This is actually I think a very fascinating hearing. And I 
am going to open the line of questioning. I recognize myself 
for five minutes.
    There are a couple things that we were talking about. First 
of all, I would like to say that, as a Member of Congress, one 
of my roles is to make sure that the things that we do protects 
people's constitutional rights and that is in the forefront of 
everything that we do.
    That said, there are a couple things that I am interested 
in as it relates to information gathering and also the 
potential for impaired driver analysis to try to--you know, 
beforehand so that they are not able to drive a vehicle. I 
mean, anyone want to comment on the breathalyzer technology and 
where that might be and where the concerns are? You know, if 
you come to a vehicle and you are impaired, the vehicle won't 
let you--you essentially can't drive the vehicle. Anyone want 
to comment on that?
    Mr. Maddox, you have any--anybody have any comments on that 
at all or anybody have any information on that?
    Mr. Maddox. Yes, I can comment a little bit. I know that 
the National Highway Traffic Safety Administration, partnering 
with the Alliance of Automobile Manufacturers, is conducting a 
research program now that would look at detectors in the 
vehicle that could reliably detect a blood alcohol level 
greater than the legal limit.
    Whether--I don't think that there has been any decisions 
made on that, how to move forward. I believe it is still very 
much in the research stage. It is an early research program. I 
think it is quite clear that some significant portion--I don't 
have the numbers off the top of my head--of our fatalities in 
the United States are related to alcohol consumption.
    Chairman Bucshon. Well, I can tell you I was a 
cardiovascular and thoracic surgeon prior to coming to Congress 
and as part of my training I spent a lot of time on the trauma 
service in Milwaukee, Wisconsin, and I would say 90 percent of 
the big accidents there was some level--I mean that I saw 
coming in--related to some impairment of some sort.
    Mr. Maddox. Yeah. I would think that if that technology--to 
be successful, it would have to be proven to be extremely 
reliable.
    Chairman Bucshon. And there are privacy issues and I get 
that.
    Mr. Maddox. Yeah. Yeah.
    Chairman Bucshon. Anyone else? Ms. Tabar?
    Ms. Tabar. I can add to that that there are vehicle 
technologies today that we have available to measure things 
such as your eyes, where you are looking, if your head is 
drooping, if your eyes are drooping, if your head is turned 
away from the primary task of driving. And so I think in 
combination with that and related to Mr. Maddox's comments, the 
issue here is just reliability and repeatability and making 
sure that it is really accurate. And so the technologies just 
need to be combined and researched to make sure that we are 
getting the best possible results.
    Chairman Bucshon. The other question I have that is similar 
to that is related to so-called black box type analysis of 
crash data and we do that for airplanes. And again, there are 
privacy issues; I understand that. But if you don't understand 
why something happened, then you can never figure out how to 
fix the problem, right? So where are we on that type of 
analysis?
    Someone--if a car crashes, we might find out there was a 
vehicle failure, for example, or we might find out there was 
some other issue and that might help us in our R&D. Anyone want 
to comment on the? Ms. Tabar, you want--Toyota----
    Ms. Tabar. Yes. So data recorder devices do exist and they 
are available. There are privacy issues additionally 
surrounding those technologies. There is also--you know, we 
have to be careful what is actually connected to that, what are 
the appropriate items to monitor how long does the data get 
stored, where does it get stored, how is that accessed, who can 
access it, those type of things. But certainly in the mobility 
industry, as you said, understanding the things leading up to, 
during, and post-crash are important to improve the overall 
safety of the vehicles and prevent those types of incidents in 
the future.
    Chairman Bucshon. Anyone else want to comment? Mr. Winfree.
    Mr. Winfree. I would add there were also other means other 
than vehicular; smartphones nowadays carry accelerometers and 
have other data so the privacy issue is larger than 
transportation. Certainly the--our FMC--Federal Motor Carrier 
Safety Administration is in the midst of a debate about 
electronic on-board recorders and the privacy interests have a 
strong say in how that develops going forward. But it is 
certainly more difficult in a light vehicle setting than 
perhaps in a controlled fleet. But they are important issues 
and important consideration and the Department is in the middle 
of the discussion.
    Chairman Bucshon. Thank you very much. Yeah, my son uses 
that technology on his iPhone when he is going down on a 
snowboard and he says look how fast I was going. It is crazy. 
Totally true story. He was going 45 miles an hour at one point.
    With that, my time is expired. I will recognize the 
Breaking Member, Mr. Lipinski, for five minutes.
    Mr. Lipinski. Thank you. I wanted to start out with Dr. 
Barkan and Mr. Maddox. MAP-21 made numerous changes to the UTC 
selection process, including instituting a peer review-based 
selection of UTC as opposed to the earlier earmarked system. 
There was some feedback that I had received afterwards from 
some applicants for UTCs who were not successful about the way 
that the review was done and especially about the transparency. 
Now, you have been successful in that process but I just wanted 
to ask both of you, starting with Dr. Barkan, is there any way 
you can see this process improved?
    Dr. Barkan. Well, thank you for the question and obviously 
thank you for your support of transportation research in 
general.
    We did win twice and so we are obviously happy with the 
process. I would say that it was very transparent. The RITA 
staff offered to provide us with detailed feedback on what the 
strengths and weaknesses of our proposal were, and I think that 
was made available to all competitors. As part of our meeting 
with RITA staff, we went through that and that was useful to us 
in terms of modifying how we were--because there were--even 
know we won, we--there were some weaknesses identified and we 
responded to those and improved, I think, our ability to 
fulfill those aspects and--as well as emphasize obviously the 
strengths that they saw. So I am quite satisfied with the 
situation as it stands now.
    Mr. Lipinski. Mr. Maddox, do you have any----
    Mr. Maddox. Yes.
    Mr. Lipinski. --comments?
    Mr. Maddox. I could add to that. We think that the UTC 
program is critical. I think you mentioned in your opening 
statement that we need a continuity of research and the UTC 
program helps provide that. It allows universities to 
contribute on the basic and early research and we think it is 
critical.
    Any, I guess, slight improvement could go towards perhaps 
making the system a bit more flexible so that a given academic 
organization could throw its hat in the ring for multiple UTC 
awards because the--our organizations are very diverse and the 
needs--the transportation research needs are very diverse so 
putting them into one bucket or one award for a UTC program 
where we could be doing multiples would be a large improvement.
    I think also just keeping with the need of this longer-term 
focus for the UTC program. It is difficult of course for any 
academic organization to ramp up quickly and then stop when an 
award stops and the problems don't stop. So anything that could 
be done to broaden the time span of the awards would be a big 
help. But we think overall the UTC program is very successful, 
is very much appreciated and should be clearly continued.
    Mr. Lipinski. Dr. Barkan, do you have another comment 
there?
    Dr. Barkan. And I want to say I agree with my colleagues' 
statements. I would add one thing. I think one thing that would 
be helpful in the future, as I said in my remarks, I think very 
clearly stating, assuming it is Congress' intent, that the UTC 
program should be multi-modal. It encourages all modes--
participation of all service modes as part of the research and 
education program.
    Mr. Lipinski. Thank you. I don't have much time left here 
and this is a question that we could spend an hour having 
everyone comment on, but I am going to throw it to Ms. Tabar 
because you said Japan--from what you said, it sounds like 
Japan is further ahead than the United States on this. We 
have--across here we have state, federal, universities, private 
industry. What would--ideally, how do we move forward most 
quickly in getting all of--everything in place to have an 
intelligent system here? What would you like to see from the 
private industry side if you could ideally put it--set it out 
there?
    Ms. Tabar. So I guess to start with we are putting it out 
there, so I think----
    Mr. Lipinski. Well, I am looking at getting to the end 
where we have an entirely intelligent system. How do we most 
quickly get there?
    Ms. Tabar. So I think, as you mentioned, and from my 
remarks, Japan's side has focused a little more on the V2I as 
opposed to the V2V as their first step wherein the U.S. market 
we are focusing a little more on the V2V. But to get both 
benefits and the full benefit of the system I think both 
aspects are necessary. So I think although the automotive 
industry is maybe making a lot of steps towards the V2V, the 
V2I still does need some reinforcement and additional research 
is necessary to understand and test those scenarios.
    So I guess from our perspective we would like to see more 
collaboration and more funding towards that testing as well as 
making, as I mentioned, outreach to the actual end consumer to 
help them understand the technology, help them experience the 
technology, and maybe dispel any myths that they may have about 
the benefits and the overall robustness of the systems.
    Mr. Lipinski. Well, if I could just briefly follow-up. Is 
the government--federal government--doing enough or doing it 
quickly enough to set a--set standards or does that need to 
move more quickly?
    Ms. Tabar. So, again, we--from my comments, we are 
encouraged that the rulemaking and for the communications 
protocol has been moving forward. We would like to encourage 
that to happen as quickly as possible. The automotive cycle is 
a little slow and so we want to make sure that we have time to 
incorporate any requirements like that. So the sooner those 
requirements can be solidified I think the sooner we can merge 
those into the market.
    Mr. Lipinski. Thank you very much.
    Chairman Bucshon. That was very diplomatic of you the way 
you said a little slow.
    Ms. Tabar. Well, it does take time----
    Chairman Bucshon. I understand.
    I now recognize Mr. Collins for his questions.
    Mr. Collins. Thank you, Mr. Chairman.
    I would like to start by saying all of us on this 
Subcommittee certainly understand the importance of research 
and development and the appropriate use of it. We may not know 
even where that research takes us and that is quite okay. But 
what I am curious--maybe I will start with Mr. Belcher. The 
public is fascinated with the whole concept of autonomous 
driving and getting in their car and so forth and I will later 
ask the question of where you think we might be 20 years from 
now, but does autonomous driving--could that work if you are 
intermixing cars that are not participating in that? You know, 
you have got your 1965 Mustang out there that is not going to 
talk to another car. Can that work where you have intermixed 
intelligent cars and then others that either are and that is 
turned off or not?
    Mr. Belcher. Sure. I think there are a couple of parts to 
that answer. I think in some respects the connected vehicle 
program that I talked about before and that a system that we 
have all talked about a bit is a really great transition to 
autonomous vehicles and will work really well collaboratively 
with autonomous vehicles and so that you can have vehicles that 
are outfitted either with connected vehicle technology or with 
aftermarket technology that provides much of the same safety 
applications. So that can help you with cars that don't--that 
aren't autonomous.
    The second part of the answer is that I also think it can, 
based on the way that they autonomous vehicles are deployed, if 
you look at what many of the manufacturers are doing, it is 
based on a system that maps the existing space. And so for that 
individual autonomous vehicle, it doesn't really matter whether 
the other vehicles are autonomous or not; you can still 
maintain the safety that you are trying to do. So it is really 
dependent upon the deployment.
    I think one thing that we--that Congress can do is to 
continue to fund the research on the basic deployment of safety 
applications associated with autonomous vehicles so that we can 
move to a common platform in a common data platform comparable 
to what Congress did in funding the connected vehicle program. 
Without that investment, we never would have gotten to where we 
are today and I think we are kind of in the same space on 
autonomous vehicles because we want to make sure that we don't 
have multiple systems that are operating inconsistently.
    Mr. Collins. Thank you. I think the next question, Mr. 
Maddox, you mentioned how liability--there are liability 
concerns and you just let it drop on that. I wonder when I 
think about the litigious part of this society and everything 
else we are seeing with the current GM situation and is it 
billions of dollars because of a switch issue liability, 
whether at the end of the day liability concerns are a 
showstopper in the United States?
    And then I would ask Ms. Tabar to--as--from--a 
representative of Toyota to answer that as well, that we can 
have all the technology we need but we throw those unlimited 
liability concerns in, could that in fact be a showstopper?
    Mr. Maddox. Yeah, thanks for that question. I don't think 
they--liability will be a showstopper. I think it will be a 
slowing down result. And what--why is that? If you think about 
these connected technologies, inherently what that means is one 
car company has to decide to trust data from another car 
company and trust data from an infrastructure device and a city 
that operates that device and maybe even in the future a 
device--data from a cell phone device that might be a 
pedestrian beacon. And so that question of if you are making 
that product decision that says, okay, here is what I am going 
to do to act on that little piece of data, I have to trust it. 
So that--car companies generally are somewhat risk-averse, not 
always but some, and they want to make the best decision for 
their customer to protect their safety.
    And so things in the United States, our tort system I 
believe will slow down the deployment of the key--of the full 
functionality of this system. I think we will see early 
deployers. Toyota may be a very good example. But I think in 
general we won't see the full benefit.
    And it is interesting also because if you think about the 
benefits, they go certainly to the driver of that one vehicle 
but also that benefit goes very much to society as a whole 
because we have reduced congestion, reduced traffic accidents, 
fatalities, et cetera, et cetera. So for both reasons I think 
we ought to be looking at a shared liability regime to minimize 
the risk of--to encourage early deployment and full deployment 
but also because we all get the benefit of it; therefore, we 
should all share in the risk.
    Mr. Collins. Okay. Thank you. My time is expired, so 
unfortunately, Ms. Tabar, we will have to wait for your answer. 
But thank you.
    Chairman Bucshon. You can have some latitude if you want to 
have her answer.
    Mr. Collins. Yeah. I just--as a car manufacturer, where do 
you think the liability issue lies, and again, would it be a 
showstopper for Toyota?
    Ms. Tabar. So, definitely we do consider the liability. It 
is different in each market. However, I think Mr. Maddox's 
comments, I echo those. It is not a showstopper. It certainly--
as he eloquently explained, it is a complex system and so there 
is a lot of data sources, which just reinforces the need to do 
extensive testing and research before deployment. And so that 
is really our philosophy to ensure that the system is as robust 
as possible, but given the complexity, that does take time, 
this may be back to my comment about a little bit slow to 
introduce. So I completely agree with that sentiment.
    Mr. Collins. Okay. Good. Thank you.
    Thanks, Mr. Chairman.
    Chairman Bucshon. Thank you.
    I now recognize Ms. Kelly for her line of questioning.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Winfree, historically the Department has put a lot of 
priority on highway programs but it seems that young people are 
choosing dense urban areas instead of moving back to the 
suburbs or to the suburbs. Can you expand on the Department's 
efforts to prioritize multimodal research? In other words, they 
don't necessarily need cars----
    Mr. Winfree. Right. Right. Exactly.
    Ms. Kelly. --as much.
    Mr. Winfree. Well, one of the areas that we are focused on 
has to do with pedestrian and bike safety. We realized and are 
monitoring the uptick in roadway fatalities, and unfortunately, 
that number of pedestrian fatalities is 4,400 of that 5,000 or 
so, so it is an important issue because at some point we are 
all pedestrians.
    So we have made pedestrian and bike safety a core issue of 
focus. We have at the U.S. DOT a Safety Council that brings 
together the Modal--Chief Modal Safety Officers for each of our 
operating administrations and we have set up a technical team 
to address these issues. The Federal Highway Administration has 
done significant work in this area, as well as the National 
Highway Traffic Safety Administration. So there is a lot of 
effort that has been put into it. It is just a matter of 
increasing the focus and finding a permanent home.
    You know, the DOT is set up largely by a mechanized means 
of transportation and pedestrian and bike is important but it 
tends to fall into the cracks. So since it is an issue of great 
importance and certainly we hear from city mayors, we hear from 
MPOs and other entities that are focused on this important 
area, we are bringing our resources to bear to address it.
    But from a multimodal perspective at the Office of the 
Secretary--Assistant Secretary for Research and Technology, 
that is our principal mission, to focus across the enterprise 
and help each of the OAs get out of silo thinking or stovepipe 
thinking so that we are better custodians of taxpayer dollars.
    So we also have a Research and Development Planning Council 
and Planning Team and that is comprised of the Chief Research 
Officers for each of the OAs focusing on a monthly basis on 
important topics across the enterprise. So it is a means for us 
to bring together and foster that collaboration multimodally.
    Ms. Kelly. That is very good to hear.
    Dr. Barkan, given that you are the only non-vehicle-focused 
witness here, do you have any thoughts on how the Department 
can continue to expand its investments beyond highway?
    Dr. Barkan. Sure. As I said in my comments, one of the 
things that I think should be considered in the upcoming 
legislation is to allow other modal administrations--the 
Federal Railroad Administration I would have in mind--to--if 
they want to add funds to the University Transportation Center 
Program to--that that would be a very good thing.
    I--as I mentioned in my comments as well, we spend far less 
on rail-related research in this country than the other modes 
by a pretty considerable margin and yet I think many people 
would agree that the importance of railroads is already 
extremely important and growing daily both on the passenger and 
the freight side. There is lots of technologies that I think--
or other solutions that could be developed if there was more 
funding devoted to rail research, whether it is through the UTC 
program or the FRA's R&D budget. However, if that can be made 
to happen I think would be very good for rail and for the 
transportation system as a whole.
    Ms. Kelly. I don't know if anybody else wanted to comment.
    Mr. Belcher. I think we are in a transformational stage in 
transportation and it really excites me and it is not just 
around the cars. We have talked a lot about cars, but, 
Congresswoman, I mean I think you really tapped into it and it 
is really the shared-use mobility environment that we are 
moving into. And you are seeing all kinds of really interesting 
opportunities to provide those people who live in urban 
environments to utilize different modes of transportation, and 
that is one of the areas that ITS America focuses on and it is 
trying to highlight those new opportunities.
    So there are now applications like there is a company that 
actually has an application here called RideScout. RideScout is 
one of the most interesting companies around. What they do is 
they are a consolidator and so you can go on to the RideScout 
application and it will tell you whether you--whether there is 
a car share, a rideshare, what the transit options are, whether 
it is a bus, the train, where--how long it will take in each 
opportunity, how much it will cost, and it will allow you to 
make an informed decision about what the best way to get from 
point A to point B is. And that is what people who live in 
urban centers need now. It gives you the opportunity to compare 
that to driving and you can do that in a cost-effective way. 
Then you can actually drill down on Google maps and figure out 
where you need to walk to get to that next Metro stop or to 
that next bike share program.
    The thing that I think is the next wonderful stage for that 
is going to be a common pricing platform over the top so you 
can--once you put your data in, you can actually pay for all of 
those applications in one--for all of those transportation 
options in one application. We are not there yet but I think 
that is the next phase for a company like RideScout.
    There are a lot of other really cool innovative companies 
that are providing us the kind of information that we need to 
be--to really--to be a multimodal and really take advantage of 
the transportation options that we have got in this country. 
And they are expanding on a daily basis and it is really being 
driven largely by communications opportunities.
    Ms. Kelly. Thank you.
    Mr. Maddox. If we have time, I would add to that. I 
completely agree that ITS has to be applied to all of our 
transportation modes, and pedestrians, motorcyclists, and 
bicyclists I think are critically important. Clearly, there are 
great mobility applications potentially, also safety 
applications, where that phone that you are carrying could 
become a beacon for you so a car doesn't hit you. And we all 
are in the same day pedestrians, we get on the train, we drive 
in our car, some of us take a bus.
    The other beautiful thing about that is that that phone, if 
you then clunk it into your 1965 Mustang with a good antenna on 
the roof, it could become a connected vehicle. And if you think 
about how quickly we turn over phones, we get a new phone every 
two years or those of us--most of us do, we get a new car every 
5 or 10. And so we could--and--through that phone as a 
``deployment device,'' we could make all those other vehicles 
connected in a much quicker fashion and I think there is a lot 
of research that needs to happen to protect pedestrians and 
bicyclists and motorcyclists for safety but also to use that as 
what I call a nomadic seeding device to get us to that critical 
mass much faster.
    Ms. Kelly. Thank you.
    Chairman Bucshon. Thank you very much. One thing--I am just 
going to make a brief comment on bicycle and pedestrian safety. 
I think one of the things that we should probably loop law 
enforcement into that because anyone that has driven through 
D.C. knows that violation of the existing laws on the books by 
both bicyclists and pedestrians I think is a serious issue. I 
just went around a curve--made a right turn 2 days ago, 
bicyclist came inside of me and I almost hit them, couldn't see 
them. They violated the law; nothing happened. So that is just 
an editorial comment, but I do think that you should loop in 
law enforcement about what types of existing compliance issues 
that we have related to that.
    With that, I will recognize Mr. Massie for five minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    As an engineer by training, I subscribe to the axiom that 
without data, all you have is an opinion, and so I was very 
encouraged by Mr. Woodruff's data that he showed and the way 
that it is collected. I would like to think that regardless of 
which party you belong to that your road is going to get taken 
care of in order of priorities that make sense.
    And I serve on a Transportation Committee and now we don't 
have the ability anymore to direct with earmarks where these 
projects are going, but I feel more confident about that when I 
know that data is being used to drive those decisions.
    So really my question on this is to Mr. Winfree. To what 
extent is the Federal DOT using data like they are using an 
Indiana, anonymous aggregate cell phone data, crowdsourced 
data, or are we still dragging out the little rollover sensors 
to find out which roads are being used the most?
    Mr. Winfree. Again, I think we are at an interesting point 
in transportation history. You are going to certainly see both 
technologies still deployed depending on largely state 
resources. What we do at the DOT through our Bureau of 
Transportation Statistics, our data-gathering efforts range 
from surveys to onsite data-gathering so it is a wide range of 
tools that we rely upon.
    But there are apps that we are aware of. Certainly the City 
of Boston has a great app for potholes and the accelerometer in 
the phone and the GPS signal capability pinpoints where a 
disruption occurs and sends a signal to a database that gets it 
to the--to MassDOT about how to repair that pothole. You are 
probably familiar with that.
    But that is the kind of technology that we certainly see a 
lot of future and a lot of promise in, but that is a commercial 
model that needs to be built out. That is not something we have 
control over.
    Mr. Massie. Well, I would encourage you to use at the DOT--
I know you are in research but--to use as much of that data and 
those new methods as you can because it is very encouraging to 
see it being used at the state level. I would hope that my 
State of Kentucky would be using it but a lot of times politics 
do enter into who gets the bridge first unfortunately.
    My next question has to do with mapping aids in vehicles. 
There was a recent article in the New York Times June 15, 
actually, 2014, said ``Agency aims to regulate map aids in 
vehicles.'' And this causes me a little bit of concern. I am 
concerned that regulations are going to make it cumbersome for 
these technologies to be implemented.
    Now, I drive through 30 miles of traffic every morning in 
D.C. but I have got a Tesla with a 17-inch screen that shows me 
where all the traffic is, and I would just ask when we think 
about regulating this and implicating mapping aids in 
accidents, let's think back to ten years ago we didn't have 
these, how many U-turns, or 30 years ago when I was in my 
parents' car and my mom and dad were arguing with each other, 
how many accidents were caused by not knowing where you are and 
stopping on an on-ramp or an off-ramp or doing a U-turn where 
you shouldn't be? Let's make sure we consider that as the base 
case when we look at mapping aides.
    Do you think that regulations could hinder adoption of 
mapping aids? Or--Mr. Belcher, I ask you that question.
    Mr. Belcher. Well, I think what you are referring to as we 
move into the new generation of mapping and travel information 
system, we are doing--we are starting to overlay crowdsourcing 
and gamification, so if you look at WAZE or INRIX or any one of 
those systems--and so the--what those systems due to make them 
effective is you engage with the traveler information system 
itself.
    And so I think the question is really a safety question and 
it is not any different from any other distracted driving 
safety question that we are all very focused on. We want to 
make sure that people are--when they are using these systems 
are not diverting their attention from the very important 
aspect of driving.
    But believe me, my children don't use any other system 
unless they are part of it. You know, this is a whole new 
generation that we are living with and we want to be part of 
that transportation system.
    Mr. Massie. They are probably looking at the map and 
steering the wheel. They are probably----
    Mr. Belcher. Well, I hope they are looking at the road 
but----
    Mr. Massie. Well, but all I am saying is that let's 
consider that the reason for the distraction actually may be 
improving safety as well by having an awareness of where you 
are and where the worst traffic is and preventing some of these 
extraordinary measures like taking U-turns or whatnot.
    Mr. Belcher. Well, we just don't want to throw the--I mean 
I agree with you we don't want to throw that technology out 
what we are trying to address important safety issues like 
distracted driving. We have got to figure out the right balance 
and I think that is an important question.
    Mr. Massie. Great. Thanks. I just don't want to lose my 17-
inch screen that gets me through traffic every morning.
    Chairman Bucshon. I was going to propose a limit up to a 
15-inch screen.
    So thank you very much.
    We are going to have a brief second round of questioning. 
Ranking Member Lipinski and I have a couple other questions we 
are going to ask so--and then any other Members that do that so 
we will do that briefly.
    I want to do the first, Mr. Woodruff, since you are from 
Indiana and we haven't asked you a question yet, I figure you 
don't want to be left out.
    So we are talking about deploying connected vehicle 
technology. What--do you see challenges that state and local 
governments might face in deploying connected vehicle 
technologies, vehicle-to-infrastructure, for example? And what 
specifically, if you can, do you think that U.S. DOT could 
assist the States in coordinating that?
    Mr. Woodruff. Well, you have to remember with the state 
systems we will always adapt to the technology. So as connected 
cars come online into our system, our system will adapt to 
that. It naturally does. So from a state DOT perspective our 
focus is always going to be at probably the micro level, the 
today problem with our transportation. You know, it will vary 
but the reality is for us the system is always going to adapt. 
So if cars get smarter and as they communicate with each other 
that only makes our system safer. So our system will--we will 
always adapt to the technology.
    Now, what I have found on the state level is normally a lot 
of the issues--I know that the Congresswoman--and I noticed she 
had left, but when you think about pedestrians or--our system 
will always adapt to that. If we start to have an issue with 
people crossing the roads, we will have to come up with a 
solution at a state level. Very rarely can we wait for that 
solution to come from, say, this state--the DOT so we have to 
move that way.
    But to answer your question it would adapt. It just 
naturally would over time. But we have to deal more with the 
reality that like my son, he drives a 2000 Mustang, which is 
probably a bad decision on Dad's part, but his car is not going 
to communicate and so we have to look out for those passengers 
today.
    Chairman Bucshon. I am also interested in long-term 
research and development mainly on traffic patterns like I 
would just comment on Evansville, for example. I moved to the 
east side of Evansville of Newburgh, which is right outside 
Evansville, and when I moved there in 1999, the major really 
highway going through Evansville, what is called the Lloyd 
Expressway really hadn't extended out that far and there was 
nothing there but it was very clear to me and to many others 
that this was going to be a--potentially an area of growth and 
in the long-term to prevent traffic snarls and backups. So what 
is kind of the long-term vision of how the state DOT looks at 
those type of things and is there ongoing pattern research in 
that regard?
    Mr. Woodruff. Absolutely. And when I showed the one chart 
that had the multicolors where we maybe look at an entire 
corridor, we would do the exact same thing with the Lloyd 
Expressway where we know today where are the backups occurring. 
You know, when we planned for our infrastructure improvements 
if we need to do an interchange at Burkhardt and Lloyd, for 
instance, that would be a----
    Chairman Bucshon. You do.
    Mr. Woodruff. Yeah, I am sure we do. That would be one that 
would have that high visibility of colors so we would know 
that. So a lot of times what we see those as it stretches back, 
we would make those investments because it would actually have 
a positive impact where we are currently having a traffic 
problem. So when we plan out, we do look to the future on this 
project to say, all right, what is this project, how will it 
impact our current problem here, and maybe that is a cheaper 
alternative so that we can stretch those dollars further by 
doing something futuristic to say, well, maybe we just--if we 
put an interchange 5 miles back, the traffic will start using 
that area as opposed to coming up here and we may not have to 
build an interchange here.
    Chairman Bucshon. Yeah, I think that is a very important 
issue because in the larger context of what we are talking 
about in Congress as it relates to the mission control not only 
with other environmentally related issues, I mean if you look 
at--and I don't have the numbers in front of the--the amount of 
fuel, for example, that we burn sitting in traffic, wasted, 
just might as well throw it away, the amount of emissions that 
are a result of traffic snarls around the country, I see that 
type of research in traffic patterns being really critically 
important to the larger discussion we are having in America 
about how we utilize fuel, how we improve our environment, and 
make those things meld together.
    So thanks for that information because I do think that that 
vision--and sometimes I think Congress needs a little 
assistance in having a longer-term vision versus a today. You 
have to have both, of course, as you have commented on, but I 
think had we looked ahead many, many years ago in certain areas 
of our country on population growth and that, we probably could 
have mitigated and directed resources to improving the 
infrastructure in those areas ahead of time that may have a 
very well prevented a lot of the wasted fuel and environmental 
impact that we see today.
    It is tough because of the funding, and I get that, but I 
really am very interested in how moving forward we really need 
to know this. That is why data, as Mr. Massie said, data is 
critically important.
    So I am going to recognize Mr. Lipinski.
    Mr. Lipinski. Thank you.
    Yes. Data are critically important but I hope no one 
latches onto the first part of what Mr. Massie said and thinks 
that because we don't do earmarks here in Washington that we 
are--the money is being spent according to data because I 
assure you, the governors and state legislators are not 
spending the money by data. So I always like to make that point 
because I always think earmarks are a--something Congress 
should be doing.
    But--and I almost--Mr. Massie got to that point about 
politics still being very much involved and----
    Mr. Massie. I assure you there is not enough data in 
Kentucky either.
    Mr. Lipinski. I am going to give this to Mr. Belcher and--
just because of your position. I am sort of looking for an idea 
about where we are going and how quickly we are going to get 
there. Where are we going to be five years from now, ten years, 
15, 20? I am not sure how long all of this is going to take, 
but I am just sort of looking at--looking for an idea, a vision 
of what is the future going to be like and how quickly are we 
going to get there? Five years from now, how much intelligent 
transportation--how much is going to be in place ten years from 
now, 15, and where do you see this--how quickly do you see this 
coming about? Because we have talked about all these different 
ideas, V2V, V2I, and then bringing in pedestrians, cyclists. 
How quickly do we get there? Can you give some idea? I know it 
is a very tough question but you, being President and CEO of 
ITS America, you must have some ideas about this and how 
quickly we are getting there.
    Mr. Belcher. You decided to give me the easy one, right?
    Mr. Lipinski. Yeah. Well, I am sure someone else would love 
to take it if you----
    Mr. Belcher. Yeah. I will take a cut at it. I think we are 
at a position unlike any other time in our history with respect 
to where--with respect to transportation and what is possible. 
Congressman Massie talked about data. I mean we are just barely 
scratching the surface of using data in meaningful ways and 
using data analytics. And so if I look at the data that we have 
got in the transportation system and the data that Mr. Woodruff 
talked about at the state level, right now we have got isolated 
segments of data, so the state transportation system has got 
one color of data, the transit system has got another, the 
emergency response system has got another, and in any given 
city you might have 20, 25 different data systems.
    And so we are at the point--we are getting close where you 
can start to scrape those data systems and to utilize them in 
an intelligent way. Once you start to do that, then you can 
start to manage transportation not just in a block-by-block and 
not just in a city and not just in a single mode but start to 
manage transportation on a regional basis and a multi-modal 
basis.
    That really opens up opportunities that we currently can't 
do and we are going to have to use things like data, things 
like technology because, quite frankly, I don't see a big 
investment in our infrastructure coming anytime soon even 
though it desperately needs it. And so the States and cities 
are going to have to look, one, to technology, two to the 
private sector. I think we are going to see greater 
partnerships between the public and the private sector, and you 
are going to see opportunistic deployment.
    So a perfect example is in southeast Michigan both Toyota, 
the University of Michigan, the state, other private sector 
agencies, the federal government are invested in the first 
full--the first real deployment of connected vehicles, and that 
is going to happen over the next three to five years, going to 
move from 3,000 vehicles in a safety pilot to 30,000 vehicles 
in southeast Michigan. This is going to be before the rules 
come out.
    So what can Congress do? Congress can make sure that, as we 
do this, we protect those bold people that are willing to take 
the risk, willing to get equipment, willing to make investments 
so that they are grandfathered when we finally get the rules. 
Because if we don't take advantage of the spectrum we have got, 
we don't take advantage of the opportunities that we have over 
the next three to ten years, we are going to lose everything. 
And so it is going to take bold people like Michigan, like 
Florida, like Texas, like Indiana that are going to be early 
adopters that are going to partner with the private sector, 
going to partner with universities, and start to see 
deployment.
    So I think what you are going to see over the next five to 
ten years is I do think you are going to see adoption of 
connected vehicle technology. I think it is going to happen 
before the rules come out. I think you are going to see it in 
cities where you have got courageous leaders that we can 
protect. I think you are going to see it at university centers 
where you have got universities that are willing to put their 
money where their mouth is, and you are going to see the 
private sector pushing this along in very difficult--in very, 
very aggressive ways.
    And we are going to do it in partnership with the federal 
government but I do think it is going to happen--we are going 
to have to move more quickly than the federal government is 
capable of moving. We are going to have to move more quickly 
than vehicle fleets turnover. And so I do see that.
    The final thing that I will say, because I can talk about 
this forever, when I talked about the shared use mobility, I 
really think that is part of the future. I think you are--I 
think we are going to start to see people, especially younger 
generation that don't have the same interest in owning cars 
that we had. I mean I had a car when I was 16, the day I turned 
16. That is changing. You know, what is way more--what is far 
more important is being connected and the cars are just 
becoming a node on the network at this point, especially in the 
urban environment.
    And so we are seeing different ownership models. I mean 
every automobile manufacturer now has a car share--now has a 
car share company or is thinking about one. Think about that. 
So that is the future we have. It is really exciting. It is 
hard to predict but it is going to be exciting and I think it 
is going to be a lot of fun.
    Mr. Lipinski. Thank you.
    Chairman Bucshon. Or in D.C. or other cities, you have a 
car when you need it. You get a Zipcar if you need a car that 
day. If you don't, you don't own a car.
    I recognize Mr. Massie for five minutes.
    Mr. Massie. Well, to use a transportation analogy here, I 
am going to flirt with the third rail and talk about funding, 
and not funding for your projects but funding of transportation 
in general because I am on the Transportation Committee and we 
have got a shortfall that we have to deal with. This is partly 
a result of not indexing the gas tax. It has been the same it 
is right now for 20 years while at the same time the CAFE 
standards go up and alternate fuel vehicles are on the road. 
And nobody wants to be a freeloader and people value surface 
transportation and roads and whatnot.
    But talk to me a little bit about how technology could help 
us with an alternative. And whether it helps the federal 
government, whether we decide to come up with that shortfall in 
transportation and infrastructure at the federal level or 
whether some of these obligations get devolved to the States 
and cities like you were talking about. Somebody is going to 
have to pay for it and it seems like the gasoline tax is, if 
not outdated now, it is going to be outdated in 10 or 20 years. 
How do we solve these problems with technology? Mr. Belcher, I 
will put you on the spot again here.
    Mr. Belcher. Well, I think where you are heading is 
probably curious about mileage-based user fees and I think that 
is really where we are----
    Mr. Massie. I think--yeah, user fees I think are the best. 
You know, put the cost----
    Mr. Belcher. Right.
    Mr. Massie. --right there where it is being used, so----
    Mr. Belcher. Yeah, I think--I mean, Congressman Blumenauer 
has a bill that he has introduced about opening up the use of 
mileage-based user fees and some new--some additional pilots. 
The State of Oregon--there have been a number of States that 
have done pilots. I think the legislation that has been adopted 
in Oregon is actually pretty interesting and it deals actually 
with electric vehicles right now. And what their experience has 
been is that people need choice and that the technology 
solution that we may all be enamored of may not be the best 
solution. When they tried to implement a pure technology 
solution, they got a lot of pushback from the public.
    And so what they found is they needed to give the public 
options. And so now within their legislation you can pay a flat 
fee on an annual basis. You can pay a fee that is based on your 
odometer on a regular basis. Or you can actually utilize the 
technology that is available so that you can actually pay for 
what you use. The technology is there to do that and you can do 
it with GPS technology pretty easily.
    The biggest challenge I think that we have to overcome is 
the administrative cost of administering the system because 
right now the gas tax is amazing efficient. We spend very 
little money administering it and it is very efficient across 
state lines. When you start to get into a mileage-based user 
fee system, the back office costs are much higher and so we 
have got to really focus on bringing those costs down and 
reducing the cost of managing it across state lines. But the 
technology is there. It is more policy issues in my mind.
    Mr. Massie. So one of the policy issues that is going to be 
inevitable though is privacy as well. And, Mr. Maddox, I think 
you talked about how you can anonymize--make anonymous some of 
the peer-to-peer stuff, but how would people retain their 
privacy in a vehicle-miles-traveled sort of situation or a 
toll--maybe micro tolling? How would they maintain privacy in 
that situation?
    Mr. Maddox. Yeah. And I was actually going to ask the--
interject the same comment that we need to be very careful 
about that. The V2V system as designed is intended--is designed 
to be completely anonymous. When we ask to--for someone to pay 
using that system or a related system, by definition it is no 
longer anonymous. In fact, it has to be very personal and your 
location has to go along with it. So I like Scott's comment 
about the fact that in Oregon they realized they need a bevy of 
solutions and maybe the best solution is not the one that is 
the most precise, i.e., not the one that relies on knowing 
exactly where you are and who you are at the same time. Maybe 
there is a better solution that is a little less complicated 
and perhaps even a little less administratively costly that 
still protects privacy but provides a generally accurate cost, 
you know, basis.
    I don't have an answer what that system is but I do know 
that we need to be very careful when we want to use a system 
designed to be private to be no longer private.
    Mr. Massie. Right. Well, just to throw something out there, 
one idea that I have thought of is instead of sending my dot, 
my GPS location to the cloud and telling everybody where I am 
every second and then let them--computing the cost of my trip, 
send my car or my phone the cost of the roads per mile that I 
am going to travel on and my phone or my car could calculate 
that. And so all that I transmit to the government is what I 
owe in tolls that day or that month. You wouldn't even know--
need to know how many miles I drove. So I think there is a way 
to do that and I think if we are going to use an alternative 
payment method for the roads, we have to solve that problem. 
Otherwise, the public won't support it and I wouldn't support 
it either myself so----
    Mr. Maddox. Yeah, and I do agree with you. I think there 
are probably many creative solutions if we put our heads 
together. There is a large policy question that goes along with 
it, and once we get past that policy question, I am sure the 
technology would be capable--I am sure we could come up with 
creative solutions that still protect privacy.
    Mr. Massie. Thank you very much.
    Chairman Bucshon. Thank you very much. I would like to 
thank all the witnesses for your valuable testimony. This has 
been very important. Like I said, it is important for a bigger 
context to where we are in our country as it relates to a 
multitude of issues, as we have heard today.
    The record will remain open for two weeks for additional 
comments and written questions from Members. In fact, I 
probably will submit some questions regarding spectrum because 
one of the takeaways from here today I heard from multiple 
witnesses is concerned about--concerns about spectrum. That is 
not under the purview of our Subcommittee but I think having 
that--the answers to those questions on the record--
Congressional record is going to be extremely important. So it 
may be open for two weeks for additional comments and written 
questions from Members. Please answer back as quickly as you 
can so that we can get that to be part of the record and get 
that information.
    At this point the witnesses are excused and the hearing is 
adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]






                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
